Nos. 19-368 & 19-369
IN THE

FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
Respondent.
ON WRITS OF CERTIORARI TO THE
SUPREME COURTS OF MONTANA AND MINNESOTA

BRIEF OF THE NATIONAL ASSOCIATION OF
HOME BUILDERS AS AMICUS CURIAE IN
SUPPORT OF RESPONDENTS

ERIC F. CITRON
Counsel of Record
DANIEL WOOFTER
ERICA OLESZCZUK EVANS
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

QUESTION PRESENTED
Whether a state court may exercise specific personal jurisdiction over the manufacturer of a defective
product when the manufacturer (1) placed the product
into the stream of commerce intentionally, (2) the
product caused the plaintiff’s injury in the forum
State, and (3) the manufacturer, through its actions,
indicated an expectation that the product at issue be
purchased or used in the forum State.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICUS ............................................. 1
SUMMARY OF ARGUMENT ..................................... 2
ARGUMENT ................................................................ 5
Intermediate Businesses Depend On The
Personal Jurisdiction Supplied By The
Stream-Of-Commerce Rule................................... 5
A. Home builders are an important
example of how businesses themselves
depend on the stream-of-commerce rule ....... 7
B. Courts have been fairly applying the
stream-of-commerce test for years .............. 16
The Stream-Of-Commerce Rule Is Correct ........ 21
CONCLUSION .......................................................... 30

iii
TABLE OF AUTHORITIES
Cases
Align Corp. Ltd. v. Allister Mark Boustred,
421 P.3d 163 (Co. 2017) ......................................... 20
Barone v. Rich Bros. Interstate Display
Fireworks Co.,
25 F.3d 610 (8th Cir. 1994) .................................... 19
Boat Serv. of Galveston, Inc. v.
NRE Power Sys., Inc.,
2019 WL 6716907 (E.D. La. Dec. 10, 2019)........... 19
Book v. Doublestar Dongfeng Tyre Co.,
860 N.W.2d 576 (Iowa 2015) ............................ 19, 20
Bristol-Myers Squibb Co. v.
Superior Court of Cal.,
137 S. Ct. 1773 (2017) ...................................... 24, 26
In re Chinese-Manufactured
Drywall Prods. Liab. Litig.,
742 F.3d 576 (5th Cir. 2014) .............................. 2, 11
In re Chinese-Manufactured
Drywall Prods. Liab. Litig.,
753 F.3d 521 (5th Cir. 2014) ............................ 12, 13
Clune v. Alimak AB,
233 F.3d 538 (8th Cir. 2000) .................................. 18
Cox v. Shell Oil Co.,
1995 WL 775363 (Tenn. Ch. Ct. Nov. 17, 1995).... 15
Evanston Ins. Co. v. Germano,
514 F. App’x 362 (4th Cir. 2013) ............................ 14
Granite State Ins. Co. v.
Am. Bldg. Materials, Inc.,
504 F. App’x 815 (11th Cir. 2013) .......................... 14

iv
Helicopteros Nacionales de
Colombia, S.A. v. Hall,
466 U.S. 408 (1984) ................................................ 24
Hoffman v. Empire Mach. & Tools Ltd.,
2011 WL 1769769 (W.D. Mo. May 9, 2011) ..... 17, 18
Int’l Shoe Co. v. Washington,
326 U.S. 310 (1945) .......................................... 25, 26
J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873 (2011) .................................... 23, 27, 28
LLOG Expl. Co. v. Fed. Flange, Inc.,
2019 WL 4038599 (E.D. La. Aug. 27, 2019) .... 16, 17
Luv N’ care, Ltd. v. Insta-Mix, Inc.,
438 F.3d 465 (5th Cir. 2006) .................................. 18
Michelin N. Am., Inc. v. De Santiago,
584 S.W.3d 114 (Tex. App. 2018) ........................... 20
Old Wayne Mut. Life Ass’n v. McDonough,
204 U.S. 8 (1907) .............................................. 25, 26
Paul v. Virginia,
75 U.S. (8 Wall.) 168 (1869) ................................... 26
Paz v. Brush Engineered Materials, Inc.,
445 F.3d 809 (5th Cir. 2006) .................................. 18
Pennoyer v. Neff,
95 U.S. 714 (1878) ............................................ 25, 26
Russell v. SNFA,
987 N.E.2d 778 (Ill. 2013) ...................................... 20
Ruston Gas Turbines, Inc. v. Donaldson Co.,
9 F.3d 415 (5th Cir. 1993) ...................................... 19
In re Senergy & Thoro Class Action Settlement,
1999 WL 33563728
(N.C. Super. Ct. July 14, 1999) .............................. 14

v
Simmermon v. Dryvit Sys., Inc.,
953 A.2d 478 (N.J. 2008) ........................................ 15
Sproul v. Rob & Charlies, Inc.,
304 P.3d 18 (N.M. Ct. App. 2012) .......................... 20
State ex rel. Ford Motor Co. v. McGraw,
788 S.E.2d 319 (W. Va. 2016) ................................ 20
State v. LG Elecs., Inc.,
375 P.3d 1035 (Wash. 2016) .................................. 21
Vandelune v. 4B Elevator
Components Unlimited,
148 F.3d 943 (8th Cir. 1998) .................................. 19
Verde v. Stoneridge, Inc.,
2015 WL 1384373 (E.D. Tex. Mar. 23, 2015) ........ 18
Vermeulen v. Renault, U.S.A., Inc.,
985 F.2d 1534 (11th Cir. 1993) .............................. 18
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ........................................ passim
Other Authorities
Bipartisan Policy Ctr., The State of the
Residential Construction Industry
(Sept. 2012), https://bit.ly/3dLxnSl.......................... 9
Josh Brown, Norfolk Company That Imported
Drywall Closes, The Virginia-Pilot
(Jul. 10, 2009), https://bit.ly/2Jy5izQ .................... 14
Paul Emrath, Buying Products for Home
Building & Remodeling: Who and Where
(Nov. 9, 2012), https://bit.ly/3aLMY2x .................... 8

vi
Paul Emrath, Nat’l Ass’n of Home Builders
Econ. & Hous. Policy Grp., Residential
Construction Employment Across States and
Congressional Districts, 2017 (2019),
https://bit.ly/33ZqdWb.............................................. 7
Paul Emrath, National Impact of Home
Building and Remodeling: Updated Estimates
(Apr. 1, 2020), https://bit.ly/2UWRJ2m................... 7
Paul Emrath, Subcontracting: Three-Fourths of
Construction Cost in the Typical Home,
https://bit.ly/2UxFLx2
(last visited Apr. 4, 2020) ......................................... 8
International Attendees,
NAHB IBS, https://bit.ly/2UCSXkB
(last visited Apr. 5, 2020) ......................................... 9
J.D. Power & Assocs., Satisfaction with NewHome Builders and New-Home Quality Reach
Historic Highs, as Home Builders Respond to
Tough Market Conditions by Improving
Products and Service, PR Newswire
(Sept. 15, 2010), https://prn.to/2Uwxolw ............... 10
Kitec Plumbing System Settlement,
http://www.kitecsettlement.com/
(last visited Apr. 4, 2020) ....................................... 15
Manufactured Hous. Research All., Factory
Built Housing Roadmap (Including
Recommendations for Energy Research)
(Jan. 2006), https://bit.ly/2UQFYdW ....................... 8
Nat’l Ass’n of Home Builders, Housing’s
Contribution to Gross Domestic Product,
https://bit.ly/2X1vafI (last visited Apr. 4, 2020) ..... 7

vii
U.S. Geological Survey, Mineral Commodity
Summaries 2020 (2020),
https://on.doi.gov/2JujYQu....................................... 9
What Building 1,000 Homes Means to the U.S.
Economy, LBM Journal (Apr. 2, 2020),
https://bit.ly/2xPmBd4 ............................................. 7

INTEREST OF AMICUS1
The National Association of Home Builders
(“NAHB”) is a Washington, D.C.-based trade association whose broad mission is to enhance the climate for
housing, homeownership, and the residential building
industry, and to promote policies that will keep safe,
decent, and affordable housing a national priority.
Since its inception in the early 1940s, NAHB has
served as “the voice of America’s housing industry.”
NAHB is a federation of more than 700 state and
local associations. It represents more than 140,000
members nationwide. About one-third of NAHB’s
members are home builders and/or remodelers. The
others are associates working in closely related fields
such as sales and marketing, housing finance, and the
manufacturing and supplying of building materials.
NAHB’s members construct over 80% of the housing
in the United States. NAHB’s website address is
www.nahb.org.
As further explained below, the home building industry plays a major role in the national economy, accounting for three to five percent of the national GDP,
employing more than four million people for residential construction alone, and generating substantial tax
and fee revenue for governments at every level. This
case involves an issue of critical importance to NAHB
and its members—and thus of critical importance to
those they employ, and the local, state, and national
governments they support—namely, whether courts
1

All parties have consented to this filing. No party’s counsel authored this brief in whole or in part, and no one other than
amicus, its members, or its counsel contributed money to fund its
preparation or submission.

2
that routinely have jurisdiction over those members
will also have jurisdiction over the entities ultimately
responsible for the injuries.
SUMMARY OF ARGUMENT
There is perhaps a perception that the business
community uniformly favors narrow rules of personal
jurisdiction that limit suits against defendants to only
those States in which their forum contacts can be said
to be the direct and proximate cause of the injury. If
so, that perception is misplaced. That rule does favor
certain businesses: It particularly helps manufacturers or designers of defective products, many of whom
are now located abroad and will face no obvious forum
for claims against them in the United States under petitioner’s rule. But it harms other businesses—particularly those businesses that lie between consumers
and initial manufacturers within the stream of commerce and face potential liability for defects in the
original maker’s design. Home builders are archetypical examples of such firms, and their experience
demonstrates how such ill-considered rules can end up
unfairly leaving some businesses holding the bag for
others, through no fault of their own.
The problem is that intermediate businesses like
home builders are often subject to uncontroversial
claims of specific personal jurisdiction where the injury occurs. For example, the general contractor who
builds a house will be subject to personal jurisdiction
for claims related to that house where it was built—
say, a claim that the drywall is defective. See, e.g., In
re Chinese-Manufactured Drywall Prods. Liab. Litig.,
742 F.3d 576, 582-83 (5th Cir. 2014) (discussing suits
related to “hundreds of millions of square feet of drywall imported from China in homes across the United

3
States” that caused “property damage and health
problems”). Applicable tort or products-liability rules
will also often make this intermediate business liable
for the full extent of the injury. Responsibility may
thus fall on this business to implead or seek contribution from the manufacturer that actually caused the
damage by selling defective products to that general
contractor (or, more realistically, one of its subcontractors).
If courts routinely can reach only an intermediate
business, and not the ultimate wrongdoer, the inevitable result is to multiply litigation about the same matter, and—quite possibly—to stick an intermediate
business with liability when they have no fault and
cannot find a U.S. court with jurisdiction over the responsible party. In fact, under petitioner’s proposed
rule, whether the court can adjudicate the liability of
the actual wrongdoer in such cases will turn on utterly
trivial happenstances, like whether a particular piece
of drywall can be traced to a particular delivery and
whether title to that drywall passed from the manufacturer to the purchaser in the very same State where
the home at issue was built. What will inevitably result is a system only lawyers and bureaucrats could
love.
Instead of allowing the law to get caught up in
such irrelevant details—and a potential storm of premerits litigation in every case—this Court has the opportunity here to reaffirm the simple and predictable
“stream of commerce” rule that has been an accepted
background principle for personal jurisdiction in product-related cases for decades. This is a different tack
than the one respondents take. Compare Resp. Br. 44.
Under that rule, a “forum State does not exceed its

4
powers under the Due Process Clause if it asserts personal jurisdiction over a corporation that delivers its
products into the stream of commerce with the expectation that they will be purchased by consumers in the
forum State.” World-Wide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297-98 (1980). Where that rule is
satisfied, and the product at issue caused the plaintiff’s injury in the forum State, there should be no need
for further inquiry into specific personal jurisdiction.
That is particularly so because, in any such case,
all the possible concerns that animate personal jurisdiction doctrine are satisfied. In contrast, petitioner
abstracts away from the particular words this Court
has used to describe its doctrine—words like “purposeful availment” or “arising from or related to”—which
are themselves abstractions away from first principles. But this case is simple if one just attends to the
first principles themselves. The only constitutional
concerns this Court has identified as grounding points
for personal jurisdiction doctrine are (1) fairness to defendants; and (2) principles of sovereignty and federalism. Both are well served by the stream-of-commerce test: There can be no fairness objection from a
defendant who puts a product on sale expecting it to be
used or purchased in the forum State, and there can
be no federalism or sovereignty objection to allowing a
State to adjudicate a case about an injury that occurred within its own borders.
The upshot of this correct approach is that personal jurisdiction doctrine will remain tied to facts
that matter, and avoid becoming a source of unnecessary red tape and court-induced complication in business dealings. Those who manufacture products and
put them into the market expecting that they be sold

5
all over the United States—including those who do so
from abroad—can be asked to answer claims arising
from those products wherever they cause injury in the
United States, even if the particular item involved
first entered the stream of commerce somewhere else.
This will relieve intermediate businesses (like home
builders) of the need to maintain pointless paper trails
tracing, for example, a particular pipe in a particular
house back to a particular sale delivered in a particular State. And it will provide those businesses with
some certainty that, when asked to answer for the
products or services they sell in a particular forum, the
upstream manufacturers or sellers that are intentionally supplying that market with defective products can
be asked to answer in the same forum as well.
ARGUMENT
Intermediate Businesses Depend On The
Personal Jurisdiction Supplied By The
Stream-Of-Commerce Rule.
Intermediate businesses like home builders increasingly depend on an interconnected web of business dealings and relationships. The contracts, subcontracts, and supply chains that cause a particular
material to be used in building any given home may
involve multiple steps or intermediaries, and may or
may not permit the differentiation of any given item of
a product from another instantiation of that same
product used in another home or even another part of
the same house.2 Businesses like home builders thus
2

For convenience, this brief uses the word “product” to refer to a given product type or design (say, 3M’s Multi-Purpose
Duct Tape 3900) and the word “item” to refer to any given

6
depend on the basic assumption that, when a product
is marketed for purchase or use in every State, the
company that expects its product to permeate the U.S.
market can be sued about that product wherever in the
United States the plaintiff suffers an injury caused by
that product. Were it otherwise, both the risks and the
bureaucratic demands imposed upon intermediate
companies that lie between manufacturers and consumers would be enormous.
Home builders are hardly alone in this regard. Almost any firm that provides services using components designed by others could face the same concern.
Take construction companies of all stripes, hospitals,
retailers, repair shops, and pharmacies, which all
have a reliable physical presence in the States in
which they operate and will thus be subject to personal
jurisdiction for claims related to those in-forum operations. All rely on complex and diffuse supply chains
involving multistate and international channels and
suppliers. Meanwhile, substantive liability regimes
often create a risk that these companies may be held
jointly liable with those other companies in their supply chains for defects in the parts or materials that
they use. For these companies to plan operations with
reasonable awareness of their potential liabilities,
they need to know whether and when the same courts
that hold them liable for design defects they did not
create can reach the manufacturers and other companies in their supply chains that actually caused the
plaintiff’s harm. That need is even more acute in the

instantiation of that product (say, a particular roll of 3M’s MultiPurpose Duct Tape 3900).

7
case of international suppliers, who have no home forum in the United States.
A. Home builders are an important
example of how businesses themselves
depend on the stream-of-commerce rule.
1. The home building industry plays a major role
in the national economy. Even since the “Great Recession,” residential construction has accounted for three
to five percent of the national GDP. See NAHB, Housing’s Contribution to Gross Domestic Product,
https://bit.ly/2X1vafI (last visited Apr. 4, 2020). In recent years, the industry has employed more than four
million people to work in residential construction,
about a quarter of whom were employed by home
builders and three-quarters of whom were specialty
trade contractors—nearly three percent of the entire
U.S. civilian workforce. See Paul Emrath, NAHB
Econ. & Hous. Policy Grp., Residential Construction
Employment Across States and Congressional Districts, 2017, at 1-2 (2019), https://bit.ly/33ZqdWb.
Viewed through a different lens, building 100 average single-family homes generates 290 jobs, measured in full-time equivalents. See Paul Emrath, National Impact of Home Building and Remodeling: Updated Estimates 1 (Apr. 1, 2020), https://bit.ly/
2UWRJ2m. And building 100 average rental units
generates 125 jobs by that measure. See id. In turn,
those construction projects generate crucial tax and
fee revenue for all levels of government—nearly $13
million for 100 average single-family homes, and
about $5.5 million for 100 average rental units. See id.
at 5. This is especially important now, as we look to
how the economy will recover from the economic effects of the current pandemic. What Building 1,000

8
Homes Means to the U.S. Economy, LBM Journal (Apr.
2, 2020), https://bit.ly/2xPmBd4.
2. Home building represents one industry (of
many) in which the finished task or product involves
an exceedingly complex array of parts and materials
sourced by different actors from various firms here
and abroad. Building even a run-of-the-mill residence
ordinarily requires the coordination of many participants and subcontractors, and the installation of thousands of component parts. Indeed, as many as 30 different categories of materials are used in a single
2,000-square-foot home. Manufactured Hous. Research All., Factory Built Housing Roadmap (Including Recommendations for Energy Research) 10 (Jan.
2006), https://bit.ly/2UQFYdW. Within those categories are innumerable products and even more innumerable items, be they individual screws, nails,
beams, tiles, panels of drywall, buckets of paint, shingles, window panes, and the like.
Meanwhile, homebuilders of all kinds will very
rarely perform all construction work themselves, with
just their employees. Instead, builders usually subcontract much (or all) of the actual construction to
trade contractors—specialists who perform work like
excavation, framing, roofing, plumbing, electrical installation, tiling, finished carpentry, masonry, painting, drywall installation, and paving. On average, 22
different subcontractors are used to build a single
home. Paul Emrath, Subcontracting: Three-Fourths
of Construction Cost in the Typical Home 1,
https://bit.ly/2UxFLx2 (last visited Apr. 4, 2020). And
these subcontractors often select the particular building products and items they install. Paul Emrath,
Buying Products for Home Building & Remodeling:

9
Who and Where 1, 5 (Nov. 9, 2012), https://bit.ly/
3aLMY2x.
This fact only compounds the complexity of a supply chain that is already multifaceted and increasingly
international in scope. Today, many of the key building products used for residential construction come
from foreign sources and suppliers. Bipartisan Policy
Ctr., The State of the Residential Construction Industry 7 (Sept. 2012), https://bit.ly/3dLxnSl. This is so for
drywall, lumber, veneer, plywood, cement, iron, steel,
appliances, and accessories, among many others. Indeed, the majority of the gypsum used for manufacturing drywall in the United States is now imported from
Canada and Mexico. And less than seven percent of
copper—a metal used extensively throughout residences—is sourced within our borders. See U.S. Geological Survey, Mineral Commodity Summaries 2020,
at 52-53 (2020), https://on.doi.gov/2JujYQu. This
trend will only increase as foreign manufacturers’ interest in the U.S. market grows. Most recently, for example, NAHB’s International Builders Show attracted
over 80,000 visitors from more than 100 different
countries—and attendance increases year after year.
See International Attendees, NAHB IBS, https://bit.ly/
2UCSXkB (last visited Apr. 5, 2020).
Builders will certainly know their suppliers and
the manufacturers of the products that they use. But
for the reasons just given, it will frequently be difficult
or impossible to track a particular item back through
the supply chain that brought it into a particular
home. As a concrete example, it is relatively likely
that a builder could say that the drywall used for a
given home in Oklahoma was manufactured by a particular Chinese company. But it is not likely that, for

10
any given linear foot of drywall, the builder will know
with certainty whether it came from a batch sold directly into the State, or from one sold into a different
State but ultimately distributed to a warehouse in Oklahoma. And it will be even less clear to a general contractor what kind of contractual relationships exist between manufacturers, distributors, shippers, and retail outlets before a given manufacturer’s parts are
chosen for installation by a subcontractor.
3. In recent years, home builders have faced an
increase in lawsuits brought by homeowners alleging
construction-related claims.
Builders are generally liable to homeowners in the
first instance for construction-related defects, even if
the harm was caused by a trade contractor or defective
building product. And even if a home builder could
defend itself from liability, the builder and homeowner
typically want the same thing in the first instance—to
fix the problem. Home building is a competitive business that requires builders to maintain a reputation
for constructing quality residences and standing behind their work. See J.D. Power & Assocs., Satisfaction with New-Home Builders and New-Home Quality
Reach Historic Highs, as Home Builders Respond to
Tough Market Conditions by Improving Products and
Service, PR Newswire (Sept. 15, 2010), https://prn.to/
2Uwxolw. That means that the builder will typically
respond to a complaint by at least initially eating the
cost of repairing the home.
As a matter of law, policy, and fairness, however,
the ultimate cost of repairing the defect ought to fall
on the party in the chain of distribution or installation
responsible for causing the problem. That person is
best situated to prevent the problem in the first

11
instance, and should thus be incentivized to supply a
quality product or do quality work. For this reason, a
builder who corrects another’s defect or mistake is
generally indemnified under the law for the cost of repair, and can seek contribution from the responsible
party or try to join them to any suit.
This leads to the concern that animates NAHB’s
participation here. It is uncontroversial for a court to
assert personal jurisdiction over a home builder or a
contractor or subcontractor in the forum where the
house was built. But rules like those advocated by petitioner can make it quite difficult for those same
courts to reach the responsible manufacturers and distributors higher up in the supply chain. This is true
for both domestic and foreign companies, but the issue
is most serious in the case of foreign entities, for
whom—under petitioner’s misreading of the law—
there may be no available forum for personal jurisdiction in the United States.
In this regard, consider a few examples from the
home building industry, the most vivid of which may
be the health and property complaints associated with
defective Chinese drywall.
a. From about 2005 to 2008, hundreds-of-millions
of square feet of drywall manufactured in China was
exported to the United States and installed in new and
reconstructed homes. See In re Chinese Manufactured
Drywall Prod. Liab. Litig., 742 F.3d 576, 582 (5th Cir.
2014). This drywall caused both property damage and
health problems, and thousands of affected homeowners filed suits across the country, in the jurisdictions
where they were injured. Id.

12
Relevant here, one foreign-manufacturer defendant (Taishan, for short) claimed that it could not be
held to account in various U.S. forums because of a
lack of personal jurisdiction. See 742 F.3d at 585; In
re Chinese-Manufactured Drywall Prods. Liab. Litig.,
753 F.3d 521, 526-27 (5th Cir. 2014). In these cases,
the Fifth Circuit correctly held that Taishan could not
escape answering for its products where they had
caused injury, employing the stream-of-commerce approach.
For example, Taishan argued that—although it
did have many contacts with Florida—the plaintiffs
there could not “prove that the drywall … installed
c[ould] be traced directly to [its] Florida related activities,” just as Ford argues here. See 753 F.3d at 543.
But the Fifth Circuit disagreed. Instead, it reaffirmed
that, fundamentally, the stream-of-commerce test focuses “on whether the defendant could foresee being
haled into th[e] forum to answer plaintiffs’ claims.”
See id. at 543-44. And there, it “should [have] come as
no surprise to Taishan that it [wa]s defending suit in
Florida” for injuries sustained in Florida on account of
its defective drywall. Id. at 544.
The Fifth Circuit likewise correctly employed the
stream-of-commerce approach to reject Taishan’s effort to escape liability in Louisiana. Although it
“lacked direct physical contacts” with the State, the
court found that Taishan’s “Louisiana contacts [we]re
substantial,” having sold hundreds-of-thousands-ofdollars of drywall that it “‘absolutely’ knew … was going to New Orleans,” and this was “not … an isolated
sale.” 753 F.3d at 547-48. The claims arose out of and
related to the forum-related contacts, the court reasoned, because there was sufficient evidence that the

13
company’s drywall was “in the homes of Louisiana
plaintiffs.” Id. at 549 (quoting the district court’s opinion). In other words, the court did not require that the
specific defective product be tied to a first sale or transaction within the forum because the requirements of
World-Wide Volkswagen were satisfied: Taishan expected its product to be sold and used in substantial
quantities in Louisiana, and that product caused
plaintiffs’ injuries there.
Under Ford’s proposed standard, this would not
be enough because there was no showing that
Taishan’s contacts with Louisiana and Florida were
themselves the direct and proximate causes of the
plaintiffs’ injuries in those forums. This is a transparently unacceptable result. Taishan had intentionally
profited from its product being sold in the United
States for use in those markets, and it “absolutely
knew” those markets were contributing to its profits.
Drywall will be exceedingly difficult for plaintiffs to
trace back to some particular delivery in some distant
port in a distant State. And absent an absurdly complex paper trail that could trace a panel of drywall to
a sale in some U.S. forum, it is unclear that Ford’s
standard would allow Taishan to be sued anywhere at
all. Indeed, if a firm like Taishan now delivered its
product to its U.S. distributor abroad and (with a
wink) disclaimed any intent that it land in any given
U.S. port or reach any given U.S. forum, it could—under Ford’s rule—hide safely from suit anywhere in the
United States.
The unfair result of such a rule is to shift the cost
of a defective product to homebuilders and homeowners. Builders should not have to be the ultimate party
responsible for paying those costs. But a domestic

14
distributor of the product might not be available—indeed, in Taishan’s case, its domestic distributor in Virginia went out of business as a result of the lawsuits.
See Josh Brown, Norfolk Company That Imported Drywall Closes, The Virginia-Pilot (Jul. 10, 2009),
https://bit.ly/2Jy5izQ. And some builders’ insurers
also denied coverage for the costs. See, e.g., Evanston
Ins. Co. v. Germano, 514 F. App’x 362 (4th Cir. 2013)
(per curiam) (pollution exclusion in builder’s insurance policy applies to Chinese drywall claims against
builder); Granite State Ins. Co. v. Am. Bldg. Materials,
Inc., 504 F. App’x 815 (11th Cir. 2013) (same). Such
costs will, at the least, ultimately be passed on to
homeowners in pricing homes. And when smaller
builders are simply unable to shoulder the costs of repairs, homeowners will be left without any recourse
altogether.
b. Examples like that above are not a one-off for
the homebuilding industry. And when such situations
arise, it is critical that the manufacturer be available
to help fix the problem and resolve the homeowners’
claims.
Another such example involved a “synthetic
stucco” exterior-barrier system used from the mid-‘80s
to the mid-‘90s, designed to resist water penetration at
the outer surface of homes. A flaw in the design resulted in water getting trapped within, resulting in
damage to the substrate and other interior wall materials. Predictably, this led to a slew of class actions
against the manufacturers, distributers, builders, and
trade contractors (among others), resulting in multimillion-dollar nationwide settlements with the manufacturers. E.g., In re Senergy & Thoro Class Action
Settlement, 1999 WL 33563728 (N.C. Super. Ct. July

15
14, 1999); see also Simmermon v. Dryvit Sys., Inc., 953
A.2d 478, 481-82 (N.J. 2008). Had the manufacturers
been able to avoid personal jurisdiction under Ford’s
rule, that enormous cost might have been borne by
homebuilders alone, even though they were not actually responsible (and could not have prevented) the
harm.
The same thing happened with polybutylene pipe,
which had been installed in single-family homes and
other residential structures across the country from
the early ’70s through the ’90s. Shell Oil Co. and
Hoechst Celanese Corp. ultimately agreed to pay up to
nearly one billion dollars to resolve the case, and the
settlement provided for replumbing, repairs, and damage compensation to homeowners nationwide, for their
role in the defect. See Cox v. Shell Oil Co., 1995 WL
775363, at *5 (Tenn. Ch. Ct. Nov. 17, 1995). Again,
under Ford’s rule, that cost could easily have fallen on
parties who did not cause the harm and could not have
prevented it.
Finally, a more recent example involves the “Kitec
Plumbing System” manufactured by IPEX, which
prematurely failed, resulting in leaks and damage to
the residences and other structures in which they were
installed. Approximately 20 class actions were filed
throughout the United States and Canada, and the
ones here were consolidated in a multi-district litigation. IPEX ultimately entered a nationwide settlement in which the company contributed $125 million
in a fund to pay for repairs in the homes and other
structures equipped with the system. See Kitec
Plumbing System Settlement, http://www.kitecsettlement.com/ (last visited Apr. 4, 2020). It is imperative
that the entities responsible for the harm continue to

16
be held accountable for the costs of the damage, so
homebuilders are not left to foot the bill.
B. Courts have been fairly applying the
stream-of-commerce test for years.
1. Among federal cases, an excellent illustration
of the issues implicated here can be seen in LLOG Exploration Co. v. Federal Flange, Inc., 2019 WL
4038599 (E.D. La. Aug. 27, 2019), involving productsliability claims. There, the plaintiff—a Louisiana oil
and gas company operating wells off the Gulf Coast—
sued Federal Flange when parts that the plaintiff had
purchased from the company to use in the plaintiff’s
oil wells failed, resulting in millions of dollars in damages. Id. at *1-2. In turn, Federal Flange filed multiple third-party complaints against the foreign and domestic companies that had an upstream hand in manufacturing and importing the defective product. Id.
Two of the companies—a Delaware/New Jerseybased importer, and an India-based manufacturer—
filed motions to dismiss, arguing that they did not expect or have specific knowledge that the parts would
be distributed to a Louisiana end user. 2019 WL
4038599, at *2-3. Indeed, the importer argued that it
did not control nor have knowledge about where and
for what purpose the downstream distributor “would
resell the [parts] from batch number H-3501” to a user
in Louisiana three years later. Id. at *7. Because the
specific parts that caused the harm could be traced
and had not been sold directly into the forum, the importer urged the court to “disregard its direct Louisiana sales in the contacts analysis.” Id. at *8.
Thankfully, the court rejected that argument:
“The unique traceability of the tees at issue in this

17
case, by batch number, should not muddy the streamof-commerce analysis,” the court reasoned, because
the “touchstone for stream-of-commerce analysis is not
the defendant’s specific knowledge, nor its control, nor
a traceable route of the goods; instead, it is the defendant’s purposeful availment of the forum through the
stream of its goods rather than its agents.” 2019 WL
4038599, at *7. Thus, the importer “need not have a
particularized knowledge of the destination, or route,
of each individual tee that it places into a stream of
commerce in order to be subject to personal jurisdiction in a forum destination of one of its products said
to be defective.” Id. Critically, the court recognized
that “many manufacturers and distributors do not
have such a clearly traceable stream.” Id. Placing the
product into “this stream of commerce, flowing as it
did into Louisiana, … ma[de] reasonable [the importer’s] anticipating being haled into court in Louisiana,” when other items of the same product caused injury there. Id. at *10.
The issues before the Court arise in multiple other
contexts. In Hoffman v. Empire Machinery & Tools
Ltd., 2011 WL 1769769 (W.D. Mo. May 9, 2011), plaintiffs—a husband and wife—brought suit against a Canadian distributor in Missouri, where the husband
was injured by a device the distributor sold to his employer. Id. at *1. In response, the distributor asserted
a third-party claim against the Spanish manufacturer.
The manufacturer moved to dismiss, arguing that it
had never directly conducted any business, advertised,
visited, called, or otherwise corresponded with anyone
in the United States, let alone Missouri. Id. The court
denied the motion, based on evidence that the distributor sold most of its stock of the manufacturer’s

18
machines throughout the United States, where the
distributor also advertised and attended trade shows
to sell the defective product. Id. at *5. Moreover, the
manufacturer’s name and logo were on the machines,
and the company even customized the devices and accompanying literature to comply with North American
standards. Id. Because the claims arose “from the efforts of the manufacturer to indirectly access the market for its product in the United States—including
Missouri”—the court held that “it [wa]s not unreasonable to subject [the manufacturer] to suit” in the State.
Id. at *6.
So too in Verde v. Stoneridge, Inc., 2015 WL
1384373 (E.D. Tex. Mar. 23, 2015), in which the plaintiffs alleged injury due to a defective part—manufactured by a Connecticut company—that ultimately
ended up in plaintiffs’ Dodge Ram. Id. at *1-2. The
manufacturer argued that it could not be “subject to
personal jurisdiction in [Texas] merely because it
manufactured a spring that was incorporated into a
switch that was incorporated into a clutch safety interlock device that was incorporated into a truck sold
in Texas.” Id. at *2. The court rejected the argument,
because the manufacturer had not sought to limit
where the end product would be sold, and was aware
when placing its component part into the stream of
commerce that it would ultimately be used in vehicle’s,
like plaintiffs’, that would be sold throughout the
United States, including in Texas. Id. at *4.
Similar examples abound. See, e.g., Paz v. Brush
Engineered Materials, Inc., 445 F.3d 809, 813-14 (5th
Cir. 2006); Luv N’ care, Ltd. v. Insta-Mix, Inc., 438
F.3d 465, 468-71 (5th Cir. 2006); Clune v. Alimak AB,
233 F.3d 538, 543-45 (8th Cir. 2000); Vandelune v. 4B

19
Elevator Components Unlimited, 148 F.3d 943, 947-48
(8th Cir. 1998); Barone v. Rich Bros. Interstate Display
Fireworks Co., 25 F.3d 610, 615 (8th Cir. 1994); Vermeulen v. Renault, U.S.A., Inc., 985 F.2d 1534, 154951 (11th Cir. 1993); Ruston Gas Turbines, Inc. v. Donaldson Co., 9 F.3d 415, 420-21 (5th Cir. 1993); Boat
Serv. of Galveston, Inc. v. NRE Power Sys., Inc., 2019
WL 6716907, at *1-9 (E.D. La. Dec. 10, 2019).
2. State courts too have routinely addressed these
issues. In Book v. Doublestar Dongfeng Tyre Co., 860
N.W.2d 576 (Iowa 2015), the Supreme Court of Iowa
confronted “whether a Chinese tire manufacturer that
sold thousands of tires in Iowa through an American
distributor may be compelled to defend a lawsuit”
within the State, where the plaintiff was injured by
one of the manufacturer’s tires. Id. at 579. The court
said yes, because that the foreign manufacturer had
shipped tens of thousands of tires to Iowa over the
years, and hundreds of thousands into the U.S. market
for further distribution. Id. at 596. It did not matter,
according to the court, that the particular tires sold directly into Iowa did not include the exact model number that injured the plaintiff, because the company
had “cite[d] no authority, and we found none, supporting the proposition that we must disregard for jurisdictional purposes a manufacturer’s shipments to the
forum state of thousands of tires of a different model
than the accident tire,” especially since “the tires
shipped directly to Iowa, although different models,
had the same defective bead design as the accident
tire.” Id. at 596 n.7. And in any event, the court recognized that “indirect shipments count,” and the company had sold hundreds of thousands of the particular,
defective tire at issue to a distributor for the U.S.

20
market, which in turn shipped many to Iowa; thus, the
manufacturer “at least indirectly served the Iowa market through [its distributor] ‘with the expectation that
its tires would be purchased by consumers in the forum State.’”
Id. at 596 (quoting World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 298
(1980)) (brackets omitted).
The Supreme Court of Appeals of West Virginia
came to a similar conclusion against the petitioner in
this very case. In State ex rel. Ford Motor Co. v.
McGraw, 788 S.E.2d 319 (W. Va. 2016), Ford urged the
court to adopt the reasoning of a single district court
case, which held that there was no personal jurisdiction when the plaintiffs bought a Ford vehicle in one
State and then drove it to another where they were injured, even though Ford sold the same defective vehicle model in the forum State. Id. at 342-43. The West
Virginia state court rejected a “nexus analysis” that
was “so rigid and formalistic as to undermine the precedent of World-Wide and its progeny,” because using
“the place of sale as a per se rule to defeat specific jurisdiction …. utterly ignores the ‘targeting’ of a forum
for the purpose of developing a market.” Id. at 343. As
the court correctly concluded, the “focus in a stream of
commerce or stream of commerce plus analysis is not
the discrete individual sale, but, rather, the development of a market for the products in a forum.” Id.
Again, similar examples abound. See, e.g., Align
Corp. Ltd. v. Allister Mark Boustred, 421 P.3d 163,
172-73 (Co. 2017), cert. denied, 138 S. Ct. 2623 (2018);
Russell v. SNFA, 987 N.E.2d 778, 794-95 (Ill. 2013);
Sproul v. Rob & Charlies, Inc., 304 P.3d 18, 28-29
(N.M. Ct. App. 2012); Michelin N. Am., Inc. v. De Santiago, 584 S.W.3d 114, 133-35 (Tex. App. 2018); State

21
v. LG Elecs., Inc., 375 P.3d 1035, 1040, 1042 (Wash.
2016).
The Stream-Of-Commerce Rule Is Correct.
1. Given that this Court has repeatedly failed to
achieve a controlling majority on issues related to the
stream-of-commerce test, it makes sense to begin with
the limited version of the rule amicus advocates here.
Most importantly, we do not argue that personal jurisdiction simply follows any item the defendant places
into the stream of commerce, or even that it follows
any item the defendant places into the stream of commerce when the defendant could reasonably foresee
that the item would land in the forum State. We argue, instead, that three conditions must together suffice for personal jurisdiction. Those conditions are
that:
(1) the defendant placed an item into the stream
of commerce intentionally;
(2) that item caused the plaintiff’s injury in the forum State; and
(3) the defendant has, through its actions, indicated an expectation that the product at issue
be purchased or used by potential plaintiffs in
the forum State.
The easiest case in which this test is satisfied is one
where the defendant directly markets or sells the
product at issue in the forum State. And that, of
course, is this case.
This rule follows directly from World-Wide
Volkswagen. There, this Court held that a car dealer
and regional distributor, both of whom made sales exclusively in the northeast, were not subject to personal
jurisdiction in Oklahoma based on “the fortuitous

22
circumstance that a single Audi automobile, sold in
New York to New York residents, happened to suffer
an accident while passing through Oklahoma.” 444
U.S. at 295. This Court held that the “foreseeability”
of the vehicle ending up in Oklahoma was not enough,
because the dealer had not “purposefully avail[ed]” itself of the Oklahoma market. Id. at 297 (citation omitted). But, as this Court made perfectly clear, the same
could not be said for Audi or Volkswagen—the manufacturer and national importer—which, unlike the
northeastern entities, were intentionally serving the
Oklahoma market. Id. at 297-98. As this Court put it,
if the sale of a product of a manufacturer or
distributor such as Audi or Volkswagen is not
simply an isolated occurrence, but arises from
the efforts of the manufacturer or distributor
to serve, directly or indirectly, the market for
its product in other States, it is not unreasonable to subject it to suit in one of those States
if its allegedly defective merchandise has there
been the source of injury to its owner or to others. The forum State does not exceed its powers under the Due Process Clause if it asserts
personal jurisdiction over a corporation that
delivers its products into the stream of commerce with the expectation that they will be
purchased by consumers in the forum State.
Id. (emphasis added). This statement of the rule—
fully embodied by Audi’s decision not even to contest
personal jurisdiction in World-Wide Volkswagen, both
decides this case and demands application of the
stream-of-commerce rule as formulated above. See id.
at 288 & n.3 (explaining that the manufacturer Audi
and importer Volkswagen had abandoned any

23
personal jurisdiction challenges); J. McIntyre Mach.,
Ltd. v. Nicastro, 564 U.S. 873, 907 (2011) (Ginsburg,
J., dissenting) (noting that “the Court’s opinion” in
World-Wide Volkswagen “indicates that an objection
to jurisdiction by the manufacturer or national distributor would have been unavailing”).
It is also fully consistent with both the plurality
and the dissent in Nicastro. None of the opinions in
Nicastro questioned whether there was an adequate
relationship between the defendant, the New Jersey
forum, and the claims at issue, because the plaintiff
was suing regarding an injury he sustained from one
of the defendant’s machines in New Jersey. Instead,
the dispute was over whether the presence of that machine in New Jersey alone sufficed to establish that
the defendant had purposefully availed itself of the
New Jersey market. The plurality (and Justice
Breyer’s concurrence) thought that this was insufficient, at least in the absence of other evidence that the
defendant had purposefully availed itself of the New
Jersey market. And, in that regard, the plurality
stressed that the defendant “had no office in New Jersey.” 564 U.S.at 886 (plurality opinion). It is inconceivable that Nicastro would have reached the same
conclusion if—as here—the defendant in Nicastro in
fact had numerous branded dealerships in New Jersey
from which J. McIntyre machines were sold for use in
New Jersey. Put another way, the plurality denied
that the presence of the accident item in New Jersey
alone proved the manufacturer’s expectation that its
products would be sold or used there. One need not
quarrel with that view to correctly decide this case under the stream-of-commerce approach.

24
The Solicitor General suggests that this case does
not implicate the stream-of-commerce rule because
that rule informs only the question whether the defendant has “purposefully availed” itself of the forum
State, and not the question whether the suit is “related
to” the defendant’s forum contacts. See U.S. Br. 28.
But that is not correct. The stream-of-commerce test
as set forth above satisfies the “relatedness” requirement because it requires that the item at issue have
caused the plaintiff’s injury in the forum State. It is
therefore plain that the element that this Court recently said was “needed” in Bristol-Myers Squibb Co.
v. Superior Court of California is present—namely, “a
connection between the forum and the specific claims
at issue.” 137 S. Ct. 1773, 1781 (2017).
Indeed, the confusion in this case seems to result
from wholly ignoring that personal jurisdiction is
grounded in a three-way “relationship among the defendant, the forum, and the litigation,” Helicopteros
Nacionales de Colombia, S.A. v. Hall, 466 U.S. 408,
414 (1984) (citation omitted), rather than just the twoway relationship between the defendant’s forum contacts and the plaintiff’s claims. Where the stream-ofcommerce conditions described above are met, all
three relationships are tightly bound together by the
same thread—namely, the defendant’s own product.
(1) The relationship between the forum and the defendant is tightly bound because the defendant intentionally markets the product in the forum; (2) the relationship between the forum and the litigation is as
tight as possible, because it concerns a claim arising
within the forum from an item of that same product;
and (3) the relationship between the litigation and the
defendant concerns its design of that same product.

25
Thus, where the defendant puts an item into the
stream of commerce with the expectation that it will
be sold or used in a forum and it there causes a plaintiff’s injury, that forum is an appropriate venue for
that plaintiff to sue that defendant on that injury—
precisely as World-Wide Volkswagen says.
Notably, neither the Solicitor General nor petitioner cites a single case in which the three criteria
above were satisfied and a court found that personal
jurisdiction was lacking. The closest either can come
is this Court’s 1907 decision in Old Wayne Mutual Life
Ass’n v. McDonough, 204 U.S. 8 (1907)—decided under
the pre-International Shoe regime for personal jurisdiction. That decision is wholly inapplicable because
it does not involve an item in commerce that ever
reached the forum State. Instead, it involved a contract that was avowedly entered into in Indiana with
an Indiana insurance company. That decision thus
has little to do with the issues presented here.
Moreover, the government’s description of Old
Wayne is misleading, because the basis on which the
Pennsylvania courts asserted personal jurisdiction in
the case was not “that the insurer also sold other insurance policies in Pennsylvania.” Contra U.S. Br. 10.
Instead, the argument in Old Wayne was that Old
Wayne had consented to suits in Pennsylvania—on
any business done anywhere in the country—through
service of process on the Pennsylvania insurance commissioner alone, because it was present in Pennsylvania and doing insurance business without registering
to do so. Applying the physical-presence rule of Pennoyer v. Neff, 95 U.S. 714 (1878), this Court agreed
that Old Wayne had consented to such impersonal service with respect to any business done in

26
Pennsylvania, but that this “assent” did not extend to
“business transacted in another State.” 204 U.S. at 23.
In fact, this appears to have been a construction of
Pennsylvania’s statute, not the Constitution. See id.
This application of Pennoyer is plainly unhelpful
under the International Shoe regime, but if this Court
is inclined to follow it, then under that regime, corporations are forbidden from operating outside their
home States at all except on such terms as the States
of operation may require. See, e.g., Old Wayne, 204
U.S. at 21-23; Paul v. Virginia, 75 U.S. (8 Wall.) 168
(1869). Accordingly, if Minnesota and Montana want
to condition Ford’s operations in their respective
States on assenting to suits respecting any car crashes
within their borders, they are perfectly free to do so.
International Shoe signaled a different approach less
tied to physical presence. But if defendants like Ford
want the benefits of that regime relative to Pennoyer’s,
they must take the bitter with the sweet.
2. Under the correct understanding of the streamof-commerce rule, this case is a relatively easy one because Ford sells and markets Ford Explorers in Montana and Crown Victorias in Minnesota, and thus obviously placed the Ford Explorer and Crown Victoria
at issue here into the stream of commerce with the intent that those products be purchased and operated in
those States. When a Ford Explorer caused an injury
in Montana and a Crown Victoria caused an injury in
Minnesota, that sufficed to make those States appropriate forums for those particular injuries because
there was both an intent by the defendant to avail itself of the forum with respect to the product at issue,
and an adequate “connection between the forum and
the specific claims at issue.” Bristol Myers, 137 S. Ct.

27
at 1781. But while this is a relatively easy case, the
Court should—for the sake of clarity—recognize that
a much broader array of conduct suffices to demonstrate a defendant’s expectation that a product be sold
or used within a forum in which it has caused the injury in suit.
Most important, the Court must recognize the
basic proposition that an evident intent to target sales
in every state market will ordinarily suffice to establish an expectation that the product be used or sold
within any given State. Such a rule will often be essential to protect intermediate businesses like home
builders, because their suppliers frequently market
their products equally throughout the United States.
The simplest rule to follow in this regard was articulated by Justice Ginsburg in Nicastro, but narrower rules would be vastly superior to the one petitioner advocates here. As Justice Ginsburg put it—
citing a fulsome appendix of similar cases—“a manufacturer seeking to exploit a multistate or global market” should be subject to personal jurisdiction in any
“place where the product was sold and caused injury.”
564 U.S. at 910 (Ginsburg, J., dissenting). This rule
reflects nothing more than the logically irresistible
conclusion that “actions targeting a national market”
necessarily include actions targeting the included submarkets of the individual States. Id. at 905. And that
rule would allow businesses like home builders to employ with confidence the products that are regularly
sold by suppliers on a nationwide basis, without having to determine whether a supplier’s marketing of
drywall in America—including drywall the supplier
happily sells at local Home Depots—also involves

28
some special sale or marketing of this piece of drywall
in this particular State.
The Court need not go nearly that far, however, to
arrive at a rule that can provide a similar confidence
to intermediate businesses. It could, instead, adopt
the limitation suggested by Justice Breyer and Justice
Alito’s concurrence in the Nicastro judgment. They
reasoned that a line could be drawn between goods
that arrived in a forum based on “‘the regular and anticipated flow’” of commerce into the State, as opposed
to sales that represent only “an ‘eddy’” or “isolated occurrence.” Id. (citation and brackets omitted). Such a
rule is decidedly good enough. Home builders do not
need to know that out-of-state or international manufacturers will stand behind their products in States
where it is at all atypical or random for those products
to land. But they do need to know that, when a product is regularly used to build homes in a given State,
or sold for local use by local dealers, and is marketed
as appropriate for the U.S. market in general, they can
use any item of that product in that State with the confidence that the manufacturer will answer there for its
safety and design, without regard to where that particular item was first delivered.
3. In this way, the stream-of-commerce rule is
vastly superior to petitioner’s proposed rule in promoting business certainty and keeping the doctrine focused on the facts that really matter.
It is easy for an intermediate business like a home
builder to know with certainty whether a given product reaches a forum within the regular flow of commerce. Bosch or Miele may be foreign appliance manufacturers, but it is not hard to check that their products are routinely available from in-state dealers or

29
retail stores. Conversely, it is very hard to tell whether
a particular item of an appliance product was first sold
by those firms in a given State, and even harder to
keep one’s own inventory (or, worse, their subcontractors’ inventories) sorted by the State of initial sale. In
the very same house the same product may be used by
different subcontractors—consider the number of
paint cans it takes to paint a house. Under Ford’s rule,
if the paint proves defective and the homeowner sues,
the builder can join the paint’s manufacturer, but only
with respect to those cans of the manufacturer’s own
identical paint that the builder can prove were initially sold by the manufacturer in the forum State.
It is fair to ask why on earth that initial sale matters. And, indeed, it does not. There is no issue of sovereignty or federalism when a party sues in the forum
where a defendant’s product caused them injury. Instead, the issue is purely one of fairness to the defendant, and its purposeful availment of the forum for its
products. That requirement is satisfied by the fact
that other items of the same or similar products routinely enter the forum, in the regular flow of commerce, on account of the defendant’s own business decisions. Where that is so, it makes no difference whatsoever where the particular item in suit was first sold
or came ashore. Ford’s rule thus elevates an unpredictable and sometimes unknowable happenstance
into a determinative consideration, in pursuit of no
meaningful legal or policy consequence.
Indeed, it is unclear how intermediate businesses
will navigate the unanticipated consequences of petitioner’s proposed rule. At a minimum, their work will
be saddled with huge record-keeping demands, as they
attempt to ensure that each item of every product

30
employed can be traced to some in-forum sale or
backer. More likely, such businesses will simply find
themselves surprised by the endlessly creative ways
that out-of-state (and much worse, offshore) firms find
to claim that their own forum contacts are not the
“cause” of the injury for which the intermediate business is being held liable, even if their products surely
were.
Instead of this unpredictable innovation, the
Court should stick with what has been the rule for decades. If a manufacturer puts out a product expecting
it to be used or employed in a forum as part of the regular flow of commerce, and it there causes injury, the
manufacturer must answer there for the injury its
product caused.
CONCLUSION
This Court should affirm.
Respectfully submitted,
ERIC F. CITRON
Counsel of Record
DANIEL WOOFTER
ERICA OLESZCZUK EVANS
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com
April 6, 2020

